      United States Department of Agriculture




Office of Inspector General
Security Review of the National
Agricultural Statistics Service's
Lockup Procedures




                                       26501-0001-12
                                       February 2014
                                        Security Review of National Agricultural Statistics
                                                   Service's Lockup Procedures

                                                     Audit Report 26501-0001-12

What Were OIG’s
Objectives
We conducted an audit to
perform a security assessment
of the NASS lockup process
and procedures to determine if
physical, electronic, and other    OIG audited the effectiveness of NASS’
protection measures were
properly implemented to            lockup procedures for securing market
assure sensitive market data       sensitive commodity data before their
were secured and released,         official release.
according to established
criteria.
                                   What OIG Found
What OIG Reviewed
NASS maintains specific            The Office of Inspector General (OIG) found that the National
procedures for gathering and       Agricultural Statistics Service’s (NASS) management needs to
securing commodity data,           improve the security of its sensitive commodity market data and other
compiling them into                information technology (IT) resources. We found that NASS did not
agricultural reports, and          adequately enforce critical procedures and physical security measures
preparing and releasing the        meant to protect the security of NASS information. Notably, although
reports in a secured area—         banned from lockup, OIG was able to bring a cell phone into lockup
known as lockup.                   and witnessed a reporter using an iPad during lockup. NASS had also
                                   not taken mitigating actions to address outstanding IT vulnerabilities,
What OIG Recommends                thereby putting NASS’ systems at risk. As a result, sensitive
                                   information could be compromised or leaked before its official
OIG recommended that NASS          release, which could adversely affect equitable trading in commodity
develop, implement, and            markets. OIG notes that NASS experienced data release issues and
document periodic internal         has not yet remedied the underlying causes.
reviews for the entire lockup
process, and submit the results    These issues occurred because NASS has not established a formal
to an independent evaluator        process for effectively monitoring lockup, nor a systematic process
for follow-up. NASS should         for documenting and following up on recommendations. Managers
also take action to mitigate IT    also did not review lockup procedures for gaps, adequately oversee
vulnerabilities; implement         contracted guards and equipment inventories, and were unaware of or
controls to prevent data release   did not have resources to meet Federal security requirements. NASS
delays; improve the physical       stated that it has taken action to address the majority of the issues
security of lockup, IT             found, and management decision has been reached for 14 of the 17
equipment, and server rooms;       recommendations.
and take steps to further secure
sensitive data.
                          United States Department of Agriculture
                                  Office of Inspector General
                                   Washington, D.C. 20250



DATE:         February 21, 2014

AUDIT
NUMBER:       26501-0001-12

TO:           Cynthia Clark
              Administrator
              National Agricultural Statistics Service

ATTN:         Lisa A. Baldus
              Director, Financial Management Division
              Agricultural Research Service

FROM:         Gil H. Harden
              Assistant Inspector General for Audit

SUBJECT:      Security Review of National Agricultural Statistics Service’s Lockup Procedures


This report presents the results of the subject audit. Your written response, dated January 16,
2014, is included in its entirety at the end of the report. Excerpts from your response and the
Office of Inspector General’s (OIG) position are incorporated in the relevant sections of the
report. Based on your January 16, 2014, response and additional information received on
January 22, 2014, we were able to accept management decision on Recommendations 3-8 and
10-17 in the report. To reach management decision on the remaining recommendations, please
see the relevant OIG Position sections in the audit report.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days,
describing the corrective actions taken or planned, and timeframes for implementing the
recommendations for which management decisions have not been reached. Please note that the
regulation requires management decision to be reached on all recommendations within 6 months
from report issuance, and final action to be taken within 1 year of each management decision to
prevent being listed in the Department’s annual Agency Financial Report. For agencies other
than the Office of the Chief Financial Officer (OCFO), please follow your internal agency
procedures in forwarding final action correspondence to OCFO.

We appreciate the courtesies and cooperation extended to us by members of your staff during our
audit fieldwork and subsequent discussions. This report contains publically available
information and will be posted in its entirety to our website (http://www.usda.gov/oig) in the
near future.
Table of Contents
Background and Objectives ................................................................................ 1
Section 1: NASS Lockup Management .............................................................. 3
Finding 1: NASS Needs to Establish a Formal Review Process to Oversee
Sensitive Data and IT Operations ....................................................................... 3
         Recommendation 1 .................................................................................... 7
         Recommendation 2 .................................................................................... 7
         Recommendation 3 .................................................................................... 8
         Recommendation 4 .................................................................................... 8
         Recommendation 5 .................................................................................... 8
Section 2: Lockup Security ................................................................................. 9
Finding 2: NASS Needs to Improve Lockup Security........................................ 9
         Recommendation 6 ...................................................................................12
         Recommendation 7 ...................................................................................12
         Recommendation 8 ...................................................................................13
         Recommendation 9 ...................................................................................13
         Recommendation 10..................................................................................13
         Recommendation 11..................................................................................14
         Recommendation 12..................................................................................14
Finding 3: NASS Needs to Mitigate IT Security Weaknesses to Prevent Data
Compromise and Work Disruption .................................................................. 15
         Recommendation 13..................................................................................17
         Recommendation 14..................................................................................17
         Recommendation 15..................................................................................18
         Recommendation 16..................................................................................18
         Recommendation 17..................................................................................19
Scope and Methodology ..................................................................................... 20
Abbreviations ..................................................................................................... 21
Agency's Response ............................................................................................. 23
Background and Objectives 
Background
The National Agricultural Statistics Service (NASS) is responsible for providing timely,
accurate, and useful statistics regarding U.S. agriculture. The Agricultural Statistics Board
(ASB)1 is the subcomponent of NASS tasked with ensuring that the reports containing
agricultural statistics are accurate, timely, and secure. NASS conducts hundreds of surveys each
year and prepares production forecasts and final estimates for numerous commodities, including
corn, wheat, cotton, soybeans, and oranges, as well as cattle and hog inventory estimates. Some
of these are defined by Department Regulation as "speculative" because the estimates pertain to
products traded on commodity markets.2 ASB uses a special process and secure facility called
"lockup" to prevent the early release of this information. The lockup facility is located inside the
Department of Agriculture’s (USDA) South Building in Washington, D.C.

Prior to lockup, NASS State statistical offices contact farmers and ranchers, using mail and
phone calls, and record their information. NASS representatives are also dispatched to collect
field data in-person from random locations. Once State officials aggregate their estimates, the
data and comments for the speculative commodities are encrypted and transmitted to NASS
headquarters. The encrypted data are saved onto removable media, only to be decrypted in
lockup, where NASS prepares its estimates.

For non-national security programs and information systems, agencies must follow National
Institute of Standards and Technology (NIST) standards and guidelines. NIST creates standards
for information technology (IT) that ensure Federal systems meet the best practices of IT
industry security, and produce a unified security framework. NIST standards state, for example,
that facilities housing Federal IT systems’ hardware must be protected from unauthorized
entrants.

Lockup consists of a locked room guarded by an officer stationed outside the restricted area;
attendees are not allowed to bring cellular devices inside. Opaque vinyl shades with steel
reinforcement are drawn over windows and sealed to prevent unauthorized observation. All
office telephones are disconnected, and computer systems are isolated from the "outside world"
and secured. Lockup is also monitored to detect the presence of electronic transmissions.
Journalists are allowed into lockup prior to the report release in order to develop articles about
the report, which are released simultaneously with the report itself. Once permitted staff and the
media have entered lockup, they are prohibited from leaving the area or contacting anyone
outside until the report has been officially released.

The reports that NASS produces are extremely market sensitive and contain major principal
economic indicators of the United States economy. For instance, NASS provides statistical data
that are included in the World Agricultural Supply and Demand Estimates (WASDE) report. An

1
  ASB prepares and issues the official national and State forecasts and estimates relating to crop production, stocks
of agricultural commodities, animals and animal products, agricultural wage rates, and other subjects.
2
  Department Regulation 1042-042, Agricultural Statistics Board (May 29, 2009).

                                                                           AUDIT REPORT 26501-0001-12                   1
Economic Research Service economist found when the WASDE report is released, it is
“followed by an immediate reaction reflected in the opening future prices for each commodity.”3

NASS has experienced incidents where its reports are not released in a synchronous manner with
press articles.4 In 2011, three incidents involved the early release of press articles. Other times,
NASS reports appeared on its official site later than the official release time, due to connectivity
issues. NASS contracts with the National Information Technology Center (NITC) for servers
that disseminate reports to the public. According to NASS, NITC re-configured the servers in
2012. NASS has since continued to experience connectivity issues.

When press articles were released earlier than the official release time in June 2011, NASS
executive management staff requested the Office of the Chief Information Officer
(OCIO)/Agriculture Security Operations Center (ASOC) to perform an in-depth, security-
focused analysis and investigation of the occurrences.5 This audit provides additional support to
the OCIO/ASOC review by examining how effective NASS’ lockup policies and procedures are
at protecting the information from the time the estimates are received at NASS headquarters to
the time the report is authorized to be released.

Objectives
We conducted an audit to perform a security assessment of the NASS lockup process and
procedures to determine if physical, electronic, and other protection measures were properly
implemented to assure sensitive market data were secured and released, according to established
criteria.




3
  Quantifying the WASDE Announcement Effect, Michael K. Adjemian, Oxford University Press, 2012.
4
  The reports that experienced release issues were: Quarterly Hogs and Pigs and Peanut Prices – June 24, 2011;
Acreage, Grain Stocks and Rice Stocks – June 30, 2011; Dairy Product Prices, Grain Stocks, Rice Stocks and Small
Grains Summary – September 30, 2011.
5
  Agriculture Security Operations Center- Assessment and Findings of NASS Press Room Infrastructure (August 11,
2011).

2     AUDIT REPORT 26501-0001-12
Section 1:  NASS Lockup Management 
Finding 1: NASS Needs to Establish a Formal Review Process to Oversee
Sensitive Data and IT Operations
We found that NASS management is not taking adequate preventive measures to secure its
sensitive commodity market data and other IT resources. Although Federal agencies are required
to continually monitor the effectiveness of internal controls, NASS has records of only one
documented review of lockup in 2011—which examined a limited portion of the data release
process—and has not yet implemented all of the review’s recommendations. During our audit,
we also found over 4,800 vulnerabilities on 899 devices across NASS’ network, including
systems in lockup, which NASS was not taking action on.6,7 These issues occurred because
NASS has not established a formal internal review process for lockup procedures, nor a
systematic process for documenting and following up on review results. Also, no one person or
group within the ASB is tasked with consistently following up on and addressing identified
problems. Because they had performed no such reviews, NASS management incorrectly
believed that the data in lockup were adequately secured. We found that existing lockup security
procedures were not being followed—for instance, lockup entrants were able to easily carry cell
phones inside (see Finding 2)—as well as gaps in procedures for critical areas, such as guard
monitoring duties (see Finding 2) and security of IT equipment (see Finding 3). Data release
delays have also taken place, which could adversely affect equitable trading in the commodity
markets; the cause of the delays remains unresolved. The high number of vulnerabilities on
NASS' network devices puts all NASS systems at risk.

The Office of Management and Budget (OMB) requires agencies to continuously monitor the
effectiveness of internal controls and conduct periodic reviews. 8 Agencies should have a
systematic process to address deficiencies in internal controls. OMB also requires agencies to
prepare plans of action and milestones (POA&M) for identified IT security weaknesses,9 and
NASS procedures10 require that high and medium vulnerabilities be mitigated within 2 weeks
and low vulnerabilities within 30 days. 11 Further, OMB requires that statistical agencies ensure


6
   Vulnerability is a flaw or weakness in system security procedures, design, implementation, or internal controls that
could be exercised (accidentally triggered or intentionally exploited) and result in a security breach or a violation of
the system’s security policy. We scanned NASS’ system using a commercially available scanning tool.
7
   The 4,858 vulnerabilities were made up of 35 critical, 1,805 high, and 3,018 medium vulnerabilities. A critical
vulnerability is malicious in nature and will result in the compromise of the system if not acted upon immediately.
A high vulnerability, if exploited, will result in the compromise of the entire system. A medium vulnerability, if
exploited, will result in the partial compromise of a system; the attacker will gain access, but it will be limited.
8
  OMB Circular No. A-123, Management’s Responsibility for Internal Control (December 21, 2004).
9
  OMB Memorandum 04-25, FY 2004 Reporting Instructions for the Federal Information Security Management Act
(August 23, 2004).
10
   Security Policy Directive-01, Vulnerability Assessment Scans (May 5, 2011).
11
   A POA&M is a tool that identifies tasks needing to be accomplished to assist agencies in identifying, assessing,
prioritizing, and monitoring the progress of corrective efforts for security weaknesses found in programs and
systems. It details resources required to accomplish the elements of the plan, milestones in meeting the task, and
scheduled completion dates for the milestones. The goal of a POA&M should be to reduce the risk of the weakness
identified.

                                                                           AUDIT REPORT 26501-0001-12                 3
all users have equitable and timely access to data disseminated to the public. 12 A NASS
document explaining statistical procedures states that anyone having early access to sensitive
information would have an obvious advantage in trading on the commodities market, and equal,
simultaneous public access to data for all is a hallmark of NASS reports.13

A Federal Reserve Bank of Kansas City study on agricultural commodity market volatility
mentioned the delays as well, stating that anecdotal evidence suggests that individuals attempting
to download reports precisely when they are released have faced significant delays.14 It suggests
the effect this may have had on the markets, stating that, “Thus, higher volatility may have
persisted… if some groups of traders, wishing to place a trade only after accessing WASDE, are
unable to access the information at the same time as others with faster access.” This study also
found a spike in price volatility “the instant the reports are released,” with the highest amounts of
volatility occurring in the first 5 minutes. This brief period of high volatility can affect risk
management strategies, creating an environment where a very short delay in accessing
information has a large impact on traders.

In 2011, NASS experienced three incidents during which press articles were released before the
authorized time. The NASS reports are supposed to be released simultaneously by media
sources and on NASS’ official website. In each case, press articles written inside of lockup were
released early. Normally, journalists write articles while in lockup and upload them into a queue,
and NASS controls a switch that allows all articles to be released simultaneously at the official
time. In the first instance, the press articles were not held back in a queue, but published as soon
as they were uploaded. One article was sent as early as 14 minutes before the official data
release time. The second time, anticipating that a similar problem could occur, NASS told
reporters not to queue their articles until 2 minutes before release time. When the reporters
uploaded articles into the queue, the switch again allowed the reports to be published early. A
third early release, of 25 seconds, occurred in September because of human error when someone
accidently manually released the data. In each circumstance, a trader watching the NASS
website—and not the media sources that prematurely released the articles—would not have had
access to the commodity statistics as early as others.

To help remedy this issue, NASS requested that OCIO/ASOC review its data release process.
This was a technology-related review of potential issues in the press room area in lockup. The
August 2011 external review determined that an equipment malfunction was the cause of the
incidents, specifically the switch that isolates NASS’ network during lockup. Since the switch
was replaced after the OCIO/ASOC report, no other switch-related issues have been detected.
Besides recommending replacement of the malfunctioning equipment, the report also called for
other security enhancements to NASS' system. The report contained six recommendations.




12
   OMB Federal Register, Part V, Statistical Policy Directive No. 4: Release and Dissemination of Statistical
Products Produced by Federal Statistical Agencies (March 7, 2008).
13
   National Agricultural Statistics Service. About NASS. ONLINE (December 2012).
http://www.nass.usda.gov/About_NASS/ASB_and_Lockup/Lockup_QA.pdf [July 2013].
14
   Quantifying the WASDE Announcement Effect, Michael K. Adjemian, Oxford University Press, 2012.

4     AUDIT REPORT 26501-0001-12
NASS has taken action to address four of the recommendations, and two remain outstanding.15
While agencies have the flexibility to decide the best and most practical actions to address
vulnerabilities, at a minimum, NASS should have developed OMB-required POA&Ms for all of
the recommendations, as they dealt with IT security weaknesses. NASS did not create POA&Ms
for any of the six recommendations. The POA&Ms would have detailed whether NASS
accepted the recommendations, the reasoning behind its actions, and the eventual result—which
is especially important for recommendations that an agency does not implement. NASS officials
incorrectly believed that ASOC’s review did not require recommendations to be tracked by
POA&Ms.

During our audit fieldwork, we found that data dissemination problems continued to occur in
lockup, albeit under different circumstances. During the March 2013 lockup session, we
observed a delay of 4 minutes in the release of a report to the public, due to connectivity issues.
After additional discussions with NASS, we discovered that this has been and remains an
ongoing issue; and some reports have not been uploaded timely to NASS’ website. We observed
that data from news organizations were not delayed, allowing anyone who subscribes to their
services to have access to the report information before others checking NASS’ website,
resulting in inequality among users of NASS estimates. Since markets can have an immediate
reaction to the reports, this reinforces the need for timely dissemination to all members of the
public—not just those with news organization subscriptions.16

NASS contracts with the NITC for servers that disseminate reports to the public. According to
NASS, NITC re-configured the servers in 2012, and NASS continues to experience connectivity
issues. NASS stated that the delay occurred because NITC had changed the authentication
requirements for NASS servers, which interrupted the connection and did not allow the report to
be uploaded timely, thus, the report was unavailable to the public timely.

We found the agreement between NITC and NASS for server management was generic and
lacked sufficient roles and responsibilities, as well as any formal recourse for addressing
performance issues, such as penalties or other methods of enforcement. NASS is taking action
by reviewing the agreement with NITC in order to determine how and what can be strengthened.
However, given the length of time this issue has been occurring—almost a year—we believe that
NASS should intensify its efforts to permanently solve the problem.

NASS did try to respond to the issue by creating a manual process for releasing the report that
bypasses NITC servers, but the process involves opening an internet connection for one
computer in lockup 5 minutes before the official release time. With an open internet connection
prior to the official release, there is a risk that the report may be released early, or people inside
the lockup may misuse the early internet connection. In the first live use of the manual process,


15
   The two recommendations involved (1) installing a programmable switch that can facilitate data gathering, and (2)
implementing best practices on the news agencies’ workstations and infrastructure. When we asked them why they
had not acted on these issues, NASS officials stated they had not found a feasible way to maintain news agencies'
proprietary network independence while implementing the second recommendation. NASS officials also stated that
they had installed two-layer manual switches to enhance security, but had not installed the programmable switch
type that the recommendation asked for.
16
   Quantifying the WASDE Announcement Effect, Michael K. Adjemian, Oxford University Press, 2012.

                                                                         AUDIT REPORT 26501-0001-12              5
the report was available to the public on NASS' site 7 seconds after the official release time. We
note that this is a temporary and manual solution, and there is still no guarantee that the reports
will be released on time. This manual process creates an opportunity for the early release of
reports.

We also identified other long-term challenges that NASS has yet to adequately remedy.
Although NASS consistently performs monthly security scans of its network, it is not
remediating the identified IT vulnerabilities in a timely manner. The scans we performed while
conducting this audit found 4,858 critical, high, and medium vulnerabilities on 899 devices on
NASS' network— which could result in the compromise of the system, if not acted upon
immediately.

NASS scans of the lockup server indicated there were 3 high and 11 medium vulnerabilities that
existed for at least 6 months. We note that NASS did not create any POA&Ms to resolve these
vulnerabilities once they were detected—as required by NIST, the Department, and NASS
procedures. Without creating a POA&M in the Cyber Security Assessment and Management
(CSAM)17 system for each vulnerability, NASS was unable to track the progress of completion.
When we spoke to NASS officials about this issue, they said they are establishing a group to
address these vulnerabilities, and have since created one POA&M for all monthly scan results, in
order to address critical, high, and medium vulnerabilities.

We believe that many of the issues identified in our field work—including our ability to send
text messages from lockup (as described in Finding 2)—could have been discovered and
addressed by a formal, systematic, periodic review process. Without a periodic review of
implemented NASS lockup procedures, ASB cannot adequately perform its oversight duties and
proactively mitigate weaknesses that could have a major impact on equitable trading during
periods of high volatility just before and after release. NASS officials have stated they are
currently forming a designated internal review group that would be able to take on such a
project. We agree with NASS' action and encourage officials to assemble this group in a timely
manner.

The current NASS report release methods do not allow all users equitable and timely access to
public reports, which puts NASS' core mission at risk. NASS should make efforts to ensure that
the findings of all reviews are properly tracked and implemented—and IT vulnerabilities are
promptly mitigated. A formal internal review process that periodically tests the effectiveness of
the lockup procedures, with independent oversight, would help NASS spot security weaknesses
before they occur. The independent oversight should report to someone with the authority to
execute changes identified during the internal reviews, such as the Under Secretary for Research,


17
   CSAM is a comprehensive system developed by the Department of Justice, which can facilitate achieving Federal
Information Security Management Act (FISMA) compliance. CSAM provides a vehicle for the Department,
agencies, system owners, and security staff to: (1) manage system inventory, interfaces, and related system security
threats and risks; (2) enter system security data into a single repository to ensure all system security factors are
adequately addressed; (3) prepare annual system security documents, such as security plans, risk analyses, and
internal security control assessments; and (4) generate custom and predefined system security status reports to
effectively and efficiently monitor each agency’s security posture and FISMA compliance. This includes agency-
owned systems as well as those operated by contractors on the agency’s behalf.

6     AUDIT REPORT 26501-0001-12
Education and Economics (REE). Also, NASS should take actions to address report release
delays and mitigate known IT vulnerabilities.

Recommendation 1
Establish a group within NASS specifically responsible for internal reviews, and develop,
implement, and document periodic, internal reviews of the entire lockup process. The review
should involve documenting recommended actions to correct any identified issues. As part of
the review, include the results of any audits, external reviews, or other types of internal reviews.

Agency Response
In the agency response dated January 16, 2014, NASS agreed with this recommendation and
stated it will establish a group responsible for developing, implementing, conducting and
documenting, on an annual basis, internal reviews of the entire lockup process by October 1 of
each year, and the results of this review will be shared with an independent evaluator and
integrated with other evaluations.

OIG Position
While NASS agreed with the recommendation to establish a group responsible for conducting
internal reviews, we are unable to reach management decision based on NASS’ agency response.
To reach management decision, NASS needs to provide a date by which it will establish this
group.

Recommendation 2
Once started, submit the results of the internal review process to an independent evaluator not
affiliated with lockup, who is selected by the NASS administrator. The evaluator will monitor,
track, and report the results of corrective actions back to the Under Secretary for REE.

Agency Response
NASS agreed with this recommendation and stated it will employ an independent evaluator to
monitor, track and report results of corrective actions of the entire lockup process. NASS further
stated that the results of this independent evaluation will be shared with REE’s Under Secretary
bi-annually by October 1 of odd-numbered years.

OIG Position
We are unable to reach management decision based on NASS’ response. To reach management
decision, NASS needs to provide an estimated date for when the independent evaluator will be in
place. Additionally, results from each review conducted should be reported to REE’s Under
Secretary.




                                                                AUDIT REPORT 26501-0001-12         7
Recommendation 3
Create POA&Ms to track any identified vulnerabilities or recommendations from internal and
external reviews. Document the reasons for any unresolved recommendations or weaknesses.

Agency Response
NASS agreed with this recommendation and is currently conducting POA&Ms as part of its
corrective action plan and has incorporated these into USDA’s CSAM System.

OIG Position
OIG reviewed these POA&Ms and found that they have an estimated completion date of
April 30, 2014. We accept NASS’ management decision for this recommendation.

Recommendation 4
Immediately take action to prevent report release delays. As part of the process to eliminate the
delays, create a long-term plan to prevent their reoccurrence that includes specific deadlines and
then implement the solution.

Agency Response
NASS agreed with this recommendation and stated it is and has taken several actions to
minimize report release delays and it will have a plan in place by March 15, 2014, and will
incorporate continual analysis and assessment as part of the internal review process.

OIG Position
We accept NASS’ management decision for this recommendation.

Recommendation 5
Create a service level agreement with NITC to include specific responsibilities and minimum
performance standards.

Agency Response
NASS agreed with this recommendation and stated it will update its service level agreement with
NITC to include specific responsibilities and minimum performance standards by
October 1, 2014.

OIG Position
We accept NASS’ management decision for this recommendation.



8    AUDIT REPORT 26501-0001-12
Section 2:  Lockup Security 
Finding 2: NASS Needs to Improve Lockup Security

NASS is not enforcing critical lockup procedures and physical security measures meant to
protect the security of NASS information. Specifically, contrary to NASS procedures, OIG was
able to bring a cell phone into the lockup area and witnessed a reporter in lockup using a wireless
iPad, which may also have had cellular capabilities. Also, NASS did not ensure that its staff and
contractors followed proper security measures, and had insufficiently documented procedures for
some aspects of lockup security, such as guard duties. Finally, managers did not maintain proper
key card access and confidentiality records for current, retired, and separated employees. This
occurred because managers did not review the lockup and separated lockemployee procedures
for gaps, and did not adequately monitor the contracted guards. Although cameras are in place at
the entrance of lockup, lockup procedures only require the cameras to be checked periodically to
ensure the system is operating. In addition, guards need additional training to effectively
perform their lockup duties. As a result of these security weaknesses, sensitive market
information could be compromised or leaked before the official release of data, which could
adversely affect NASS' mission and equitable trading in the commodity markets.

NASS ASB Lockup Procedures require NASS to take specific security measures to ensure the
integrity of lockup, which we found were not always followed. The particular issues are detailed
below:

       Prohibited Devices

       NASS’ procedures require it to (1) prevent wireless devices from entering lockup,
       (2) detect Wi-Fi and cellular transmissions within the confines of lockup spaces, and
       (3) require visitors to declare that they do not have any wireless devices when entering
       lockup. However, on two different occasions, OIG was able to bring a cell phone into
       lockup with minimal effort to conceal it (inside a pocket). We were able to use the phone
       to send two text messages, both of which went undetected by NASS. Though NASS uses
       software to detect wireless equipment within the area, the software, due to technological
       restrictions, is unable to accurately identify the location of a cellular signal. For instance,
       someone could be using a cellular phone on the floor just above lockup, and the software
       will still flag it. Therefore, NASS staff cannot be certain when and if any cellular activity
       is occurring in lockup, as the software continually detects signals. When we sent the text
       messages, a NASS employee was observing the software and did not detect our text
       message being sent. NASS officials were aware of the software's shortcomings, but said
       that there is no other software available to replace it. Without effective software in
       place, physical measures for preventing cellular devices from entering lockup take on an
       even greater importance.

       Additionally, OIG observed a reporter in the press room using a wireless iPad, which
       may have had cellular capabilities. All who enter lockup are required to sign in and
       indicate that they are not currently in possession of a cell phone, laptop, or other wireless


                                                                AUDIT REPORT 26501-0001-12          9
     device. We checked the lockup records and found that this reporter selected the “no”
     checkbox specifying that he did not have any such devices.

     Also, while procedures state a NASS staff member is to be in the press room at all times
     monitoring the press members during lockup; we found that the person did little to
     monitor the press prior to the official release. Later, OIG notified NASS of what we had
     observed and NASS had to go back and look at security footage to verify our observation.
     NASS then suspended the news organization from entering lockup for a specified time
     period.

     Guard Duties

     NASS procedures state that the guards are assigned to observe the area outside of lockup
     and to control the movement of people and materials into the lockup area. They are also
     responsible for reminding all personnel to leave all wireless devices in a locker prior to
     entering lockup, checking passes of people who enter, and preventing anyone from
     leaving lockup before the release time. The guards are contracted Federal Protective
     Service (FPS) officers. NASS’ contract with FPS is a one-page document that details
     payment amounts and the location of lockup, and only states that guards will, “provide
     protective services for [fiscal year] FY 2013 NASS 'Crop Report' Lockups. Officers
     needed to admit authorized personnel to lockup area and prevent early release of official
     estimates.” It does not include details on the expectations for the guards’ services and
     formal ways to address any performance issues.

     Due to the nature of the contract, NASS does not know who FPS will assign prior to
     lockup, or if the specific guard has worked a prior NASS lockup. While guards are
     provided with a set of written procedures, we found that they were not always followed
     and did not sufficiently cover all duties. Also, the guards were not provided adequate
     training on lockup procedures or monitored by NASS personnel to ensure they followed
     them.

     When OIG auditors entered lockup using expired passes, the security guard allowed us
     access without collecting our passes. We then used these expired passes to enter a
     subsequent month’s lockup; this also went unnoticed by the guard. The guard also did
     not verify our names to our security badges. While NASS stated that this was a required
     procedure for guards, this action was not documented in the instructions given to the FPS
     officers. Instead, NASS said they gave instructions verbally. We also observed the
     guards occasionally have a shift change during lockups; when this occurs, NASS needs to
     have established procedures that can stand alone and clearly outline the guard’s duties,
     without any verbal instructions from NASS.

     NASS procedures require that, upon entering lockup, all persons sign in. However, we
     found not all persons did so. The sign-in sheet was on a podium just inside of lockup, but
     was easily missed by visitors because no one provided direction to sign in or verified that
     everyone had signed in. If an accurate record is not kept, NASS will not have a record of


10   AUDIT REPORT 26501-0001-12
        all individuals present in the event of an emergency, or be able to hold those individuals
        accountable in the event of a security breach.

        Confidentiality Forms

        NASS procedures require all employees who enter lockup to sign confidentiality
        agreement forms (ADM-004) on an annual basis. We reviewed the NASS employees
        who signed into two lockup sessions in March 2013 and found that out of the 41
        employees, only 3 had current forms signed within the past year. This occurred because
        supervisors are not maintaining and reviewing employee records to ensure that the form
        is signed annually by applicable employees.

        Key Card Access

        NIST requires organizations to disable and remove accounts for terminated or transferred
        users.18 We found that NASS does not have an accurate database of current key card
        holders for the lockup area. Specifically, we found 4 individuals on the lockup access list
        that NASS was not able to identify as current NASS employees or other authorized
        persons, and 38 separated employees remained on the list. This occurred because NASS
        officials did not have a documented process for removing a terminated employee from
        the card reader access system, and were not performing reconciliations between current
        employee lists and the list of key card holders. NASS recently implemented a new
        internal process to administer badges, and officials stated that they did not have the time
        or resources to deactivate badges from separated employees.

        NASS has a separation checklist used to document that the USDA photo identification
        (ID) card and lockup pass have been collected and destroyed before the employee leaves
        NASS. However, we found that this form is not being used regularly. We non-
        statistically sampled five separated employees and found that NASS could only provide
        two separation checklists of the five requested. A NASS employee who maintains the
        key card access database stated that there were no controls in place to ensure separated
        employees were consistently removed from the database. As a result, unauthorized and
        terminated employees could still gain access to restricted areas.

        Disaster Recovery

        NIST requires agencies to develop and test a contingency plan for an information system
        disruption. Although NASS has a disaster recovery plan and emergency procedures in
        place, we were not able to discern all steps for emergency procedures within lockup and
        had to speak with NASS officials to clarify. Therefore, we are concerned that even with
        this plan, NASS employees would be unaware of specific emergency procedures in the
        event of a disaster.



18
  NIST SP800-53 Rev. 3, Recommended Security Controls for Federal Information Systems and Organizations
(August 2009).

                                                                  AUDIT REPORT 26501-0001-12              11
NASS needs to strengthen its physical security measures, and timely and accurately update its
employee files and key card access database. As NASS works to establish its new internal
monitoring group, officials should take the opportunity to strengthen procedures for: physical
security, lockup entry, tracking and monitoring employee lockup access, and disaster planning.
These actions, when done in conjunction with the formal internal reviews recommended in
Finding 1, will serve to reduce the possibility of serious information breaches.

Recommendation 6
Immediately implement additional short-term procedures to prevent wireless and cellular devices
within lockup. Also, research and implement a permanent solution to prevent cellular activity
within lockup.

Agency Response
NASS agreed with this recommendation and stated it has purchased, and with each lockup is
now using, an electronic screening device that all lockup entrants must pass through to prevent
wireless and cellular devices within lockup. The response further stated that NASS submitted a
waiver request to the National Telecommunications & Information Administration in September
2013 to allow cellular blocking within the lockup area. This request was denied. NASS stated it
will continue to investigate mitigation strategies for limiting cellular access and that this review
will be incorporated into the annual review process. Additional correspondence received from
NASS on January 22, 2014 stated that the electronic screening device was implemented on
November 8, 2013. This device will screen for cellular and wireless devices.

OIG Position
We accept NASS’ management decision for this recommendation.

Recommendation 7
Revise the current FPS contract to include detailed guard responsibilities, in accordance with
NASS procedures, as well as recourse if performance is not adequate.

Agency Response
NASS agreed with this recommendation and stated that by June 1, 2014, it will revise the current
FPS contract to include detailed guard responsibilities, in accordance with NASS procedures, as
well as recourse if performance is not adequate.

OIG Position
We accept NASS’ management decision on this recommendation.




12     AUDIT REPORT 26501-0001-12
Recommendation 8
As a part of NASS’ new internal review group, include duties for monitoring the work of guards
to the group’s responsibilities.

Agency Response
NASS stated it had instituted a procedure to co-locate a NASS employee with FPS personnel to
ensure duties are carried out in accordance with contractual agreements, and further stated that it
will continue to enhance these procedures and monitor FPS personnel when a new contract is
signed. Additional correspondence received from NASS on January 22, 2014, stated that it
started co-locating NASS staff with FPS officers as of June 28, 2013.

OIG Position

We accept NASS’ management decision on this recommendation.

Recommendation 9
As part of a formal, periodic review process for lockup, validate that confidentiality forms are
signed annually by employees and contractors involved in lockup.

Agency Response
NASS stated that it will implement a process to ensure NASS employees and contractors update
and sign confidentiality forms. This process will coincide with the annual performance review
process.

OIG Position
We are unable to reach management decision based on NASS’ response. In order to reach
management decision on this recommendation, NASS needs to validate confidentiality forms for
all NASS employees and contractors involved in lockup and provide a date when validations will
begin.

Recommendation 10
Develop procedures to remove terminated or retired employees from the key card access
database, and maintain accurate documentation of separation checklists.

Agency Response
NASS agreed with this recommendation and stated it has developed procedures and will
continue to conduct monthly audits to assure that terminated or retired employees are removed
from the key card access database and that accurate documentation of separation checklists is

                                                             AUDIT REPORT 26501-0001-12            13
maintained. According to additional information received from NASS on January 22, 2014,
NASS implemented new procedures on December 13, 2013.

OIG Position
We accept NASS’ management decision for this recommendation.

Recommendation 11
Revise lockup procedures to include more specific guidance on the steps to take in the event of a
disaster during lockup, and the locations that staff, press, and visitors will be moved to. Train
NASS and media staff on disaster recovery procedures.

Agency Response
NASS agreed with this recommendation and stated it will revise lockup procedures by
October 1, 2014, to include more specific guidance on the steps to take in the event of a disaster
during lockup, and the locations to which staff, press, and visitors will be moved, and will train
its own staff and media representatives on disaster recovery procedures.

OIG Position
We accept NASS’ management decision on this recommendation.

Recommendation 12
Strengthen the FPS guards' role to increase the level of lockup security, including requiring that
the guards maintain a sign-in sheet that records the time of entry into lockup. Also, add a step to
the guards' procedures requiring them to verify that information on lockup entrants' ID cards and
passes match.

Agency Response

NASS agreed with this recommendation and stated that FPS guards have a revised protocol to
check bags and identities. NASS has taken action to ensure that FPS guards have and follow
updated and clear security procedures in regards to identity checks and documentation. The
response further stated that by June 1, 2014, NASS will update the statement of work for the FPS
guards to increase the level of lockup security, in line with the recommendations.

OIG Position
We accept NASS’ management decision for this recommendation.




14     AUDIT REPORT 26501-0001-12
Finding 3: NASS Needs to Mitigate IT Security Weaknesses to Prevent Data
Compromise and Work Disruption
We found that NASS had several unresolved IT security weaknesses: NASS officials (1) were
unaware of physical security issues in IT facilities, (2) used live data in a system that had lost its
authorization,19 and (3) used sensitive data on a system that was not categorized at a “high-
impact” level of security. NASS was unaware of some issues because it had not conducted a
physical controls review of the lockup server room. NASS officials said they were unaware of
the potential risk in using live data in a system that had not completed the assessment and
authorization process. Each of these problems, if exploited by outside attackers or unscrupulous
persons, could impact NASS’ operations and create a risk of compromised statistical data, and
compromise the lockup itself. For instance, due to inadequate physical security of an electrical
closet, the entire lockup area is at risk for losing power, which could affect report releases.

NIST guidelines and Departmental regulations require agencies to implement specific security
measures to ensure the integrity of physical infrastructure and systems. The issues we found are
described in detail below:

        Physical IT Security

        NIST requires that organizations maintain visitor access records and enforce physical
        access restrictions to the facility where an information system resides.20 OIG visited the
        server room within lockup where the switches and the ASB server are located. We
        entered the server room on multiple occasions and were never asked to sign in upon
        entering the room, and did not see any sign-in sheet available.21 In the event that the
        server equipment was tampered with or changed, NASS would have no record of
        individuals that could be responsible. When we spoke to them about this, NASS officials
        were unaware of the visitor's log requirement. After we brought up the issue, NASS
        implemented a mandatory server room visitor log.

        NIST SP 800-53 and the Department also require organizations to develop and maintain
        an inventory of their information systems.22 We found that NASS does not have an
        accurate inventory listing of its server room equipment. NASS provided us a list of what
        it believed was all the equipment in the server room. While all of the equipment listed
        was present, we identified eight additional devices in the server room that were not
        included on NASS’ inventory. This occurred due to a lack of management oversight;
        NASS staff said they simply forgot to include the other devices in their inventory.


19
   The Estimation and Publication (EP) system was authorized to operate until NASS made major changes to the
system, at which point NASS did not report the major changes to the Department, nor did it test the proper controls.
This resulted in the loss of authorization for the system to operate.
20
   NIST SP800-53 Rev. 3, Recommended Security Controls for Federal Information Systems and Organizations
(August 2009).
21
   Anyone not authorized to be in the server room needs to sign the log and document their reason for being in the
server room.
22
   DM 3545-002 USDA Information Systems Security Program (March 31, 2006) & DM 3565-001 Annual Security
Plans for Information Technology (IT) Systems (February 17, 2005).

                                                                       AUDIT REPORT 26501-0001-12                15
        Without an accurate inventory, NASS is unaware of all the equipment connected to its
        network, and therefore cannot monitor, maintain, and secure all equipment, or replace it
        in the event of a disaster.

        We also identified an unlocked, unsecured electrical closet that provides power to the
        lockup area and server room. The electrical panel containing circuit switches was clearly
        labeled in detail, and contained the main power switch for the entire lockup area. NIST
        requires that power equipment and cabling for the information system be protected from
        damage and destruction. The Department is responsible for the electrical closet and
        ensuring it is locked. OIG spoke with the USDA building electrical engineer and
        confirmed that the closet did contain the power for the lockup area and should not be
        accessible. This occurred because NASS officials were unaware of the closet, its
        location, and the security implications of leaving it unlocked. As a result, the lockup area
        is at risk of power failure and disruption, which could result in a delay when releasing the
        report. The Department has since locked the closet.

        Estimation and Publication (EP) System

        Departmental Regulation 3140-001 states that USDA's goal is to identify, protect, and
        secure critical and sensitive USDA systems and data.23 As a component of EP, NASS
        has developed a new system that collects and secures statistical information; however,
        “live” encrypted speculative data were used to test the new system. Therefore, the
        speculative data— which need to be kept confidential until their official release—were
        stored on a system that NASS had not yet received an authorization to operate. The
        authorization process involves testing controls and ensuring a system is secure;
        considering the high number of vulnerabilities we found on NASS' authorized systems,
        we are concerned about sensitive speculative data present on an unauthorized system.
        We found 732 vulnerabilities when we scanned the network that contained the EP
        system. NASS officials said they were unaware of the potential risk in using live data in
        the test system.

        Federal law requires organizations to categorize their information systems as low-impact,
        moderate-impact, or high-impact, based on the security objectives of confidentiality,
        integrity, and availability. 24 We found that NASS categorized the EP system, which
        holds highly sensitive data, as moderate. A moderate system is not required to have all
        the security controls tested that would be required for a system categorized as high.
        Therefore, NASS is not testing the security controls for a system with market sensitive
        data at the highest level.

        The EP system holds sensitive information from States that, when aggregated, would be
        considered speculative—and therefore should be kept confidential and on a system with
        high integrity, as per the NIST criteria for categorization. For instance, if unscrupulous

23
   USDA Departmental Regulation (DR) 3140-001, USDA Information Systems Security Policy (May 15, 1996).
24
  Federal Information Processing Standards Publication 199, Standards for Security Categorization of Federal
Information and Information Systems (February 2004).

16      AUDIT REPORT 26501-0001-12
         persons were able to access a crop estimate from a speculative State prior to the official
         release, they would have information that might give them an unfair advantage in the
         commodity market.

         NASS explained that the EP system connects with NASS’ General Support System
         (GSS).25 If the EP system was categorized as a high impact system at all times, the
         controls for the GSS—and therefore NASS’ entire network—would need to be tested at
         the “high” level as well, which would be more costly. Still, we believe that such an
         action is warranted, as sensitive data reside on EP at other times besides during lockup.
         For example, States periodically input sensitive crop information into EP. Therefore,
         NASS, in cooperation with the OCIO, needs to determine and implement the proper
         categorization of EP. OCIO is responsible for validating that proper categorization
         documentation and justification is accurate in CSAM.

We acknowledge that NASS has taken actions to address some of these IT issues, and believe
that it needs to do more to strengthen its IT security. Without the proper NIST physical and
environmental controls in place, NASS is increasing the risk of compromising statistical data and
lockup itself. In addition, NASS must ensure that sensitive information resides only on
authorized systems with the proper security categorization, and that equipment and power
sources are adequately secured.

Recommendation 13
As part of the internal review process in Recommendation 2, include a checklist for reviewers to
examine how NASS complies with NIST’s Special Publication 800-53's physical and
environmental controls.

Agency Response
NASS agreed with this recommendation and stated that as a part of the internal review process in
Recommendation 2, NASS will, by October 1, 2014, include a checklist for reviewers to
examine how NASS complies with the physical and environmental controls in NIST’s Special
Publication 800-53.

OIG Position
We accept NASS’ management decision for this recommendation.

Recommendation 14
Develop and implement procedures to verify that electrical equipment and server rooms are
locked at all times.


25
  A GSS is a collection of interconnected information resources supporting general IT services. A GSS normally
includes hardware, software, information, data, applications, communications, facilities, and people, and provides
support for a variety of users and common applications.

                                                                        AUDIT REPORT 26501-0001-12               17
Agency Response
In its response dated, January 16, 2014, NASS agreed with this recommendation and stated that
it has developed, is executing, and will continue to execute a pre-lockup checklist, which
includes verifying that electrical equipment and server rooms are locked at all times. In
subsequent correspondence, dated January 22, 2014, NASS stated that this checklist was
completed and implemented January 1, 2014.

OIG Position
We accept NASS’ management decision for this recommendation.

Recommendation 15
Conduct and maintain a comprehensive inventory of all equipment located within the lockup
server room.

Agency Response
NASS agreed with this recommendation and stated that it now maintains a comprehensive
inventory of all equipment in the lockup server room. This inventory list will be checked against
equipment in the room as part of the pre- lockup checklist. According to additional information
received from NASS on January 22, 2014, NASS implemented the new pre-lockup checklist on
January 1, 2014.

OIG Position
We accept NASS’ management decision for this recommendation.

Recommendation 16
When testing a system, only use test data or data that have already been released.

Agency Response
NASS agreed with this recommendation and stated it only uses test data or data that have already
been released when testing a system. NASS provided additional correspondence and
information obtained on January 22, 2014, indicating that it formally requested this through its
Change Control Board on January 21, 2014.

OIG Position
We accept NASS’ management decision for this recommendation.




18     AUDIT REPORT 26501-0001-12
Recommendation 17
In cooperation with the Department, determine and implement the appropriate security
categorization and system boundaries of the GSS and the EP System.

Agency Response
NASS agreed with this recommendation and stated by October 1, 2014, in cooperation with the
Department, NASS will review the IT systems boundaries and make adjustments where
necessary as part of the assessment and accreditation process.

OIG Position
We accept NASS’ management decision for this recommendation.




                                                          AUDIT REPORT 26501-0001-12      19
Scope and Methodology 
Our audit analyzed current NASS lockup procedures, covering the process of aggregating and
securing commodity data, and compiling them into agricultural reports that are prepared and
released using NASS’ lockup process. We focused on determining if data used to create the
reports are secured throughout the lockup process.

We conducted our audit fieldwork from February 2013 to August 2013. We visited NASS
headquarters in Washington, D.C.

To determine the security of NASS data, we performed the following steps:

     ·   Interviewed NASS staff.
     ·   Tested NASS’ physical control environment prior to, during, and following lockup.
     ·   Conducted scans of NASS’ network to identify vulnerabilities.
     ·   Analyzed past issues with data security during lockup, noted any ongoing issues, and
         determined corrective actions taken.
     ·   Reviewed the ASB system controls to determine if they are suitably designed, and if they
         conform to the minimum security requirements mandated by NIST SP 800-53 r3,
         Recommended Security Controls for Federal Information Systems and Organizations.
     ·   Participated in and tested controls during three lockup sessions to determine if they
         operated with sufficient effectiveness to provide reasonable assurance of data security.
     ·   Followed up on a review of NASS conducted by OCIO/ASOC and reviewed the
         recommendations to determine if they had been implemented.
     ·   Obtained and reviewed current policies for lockup and verified whether they are
         sufficient to secure sensitive data related to agricultural reports issued by NASS.
     ·   Reviewed various Departmental Regulations and manuals related to IT security and
         Governmentwide publications, such as NIST Special Publications, OMB Circulars, and
         the Government Accountability Office Federal Information Systems Controls Audit
         Manual, as guidelines for this review.

We used a commercially available scanning tool to evaluate IT security. We conducted this
audit in accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We believe the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.




20       AUDIT REPORT 26501-0001-12
Abbreviations 
ASB ...................................... Agricultural Statistics Board
ASOC ................................... Agriculture Security Operations Center
CSAM................................... Cyber Security Assessment and Management
EP ........................................ Estimation and Publication
FPS ...................................... Federal Protective Service
GSS ...................................... General Support System
ID ......................................... Identification
IT .......................................... Information Technology
NASS .................................... National Agricultural Statistics Service
NIST ..................................... National Institute of Standards and Technology
NITC .................................... National Information Technology Center
OCIO .................................... Office of the Chief Information Officer
OIG....................................... Office of Inspector General
OMB ..................................... Office of Management and Budget
POA&M ............................... Plan of Action and Milestone
REE ...................................... Research, Education and Economics
USDA ................................... Department of Agriculture
WASDE ................................ World Agricultural Supply and Demand Estimates




                                                                  AUDIT REPORT 26501-0001-12   21
22   AUDIT REPORT 26501-0001-12
Agency's Response 




                   USDA’S
          NATIONAL AGRICULTURAL
            STATISTICS SERVICE’S
         RESPONSE TO AUDIT REPORT




                        AUDIT REPORT 26501-0001-12   23
                               United States Department of Agriculture

                                 National Agricultural Statistics Service

                                       Office of the Administrator 




January 16, 2014

TO: 	         Gil H. Harden
              Assistant Inspector General for Audit

FROM: 	       Cynthia Clark /s/ Cynthia Clark
              Administrator
              National Agricultural Statistics Service

SUBJECT: 	    Security Review of the National Agricultural Statistics Service Lockup
              Procedures, Audit 26501-0001-12


Thank you for the opportunity to comment on your final draft report. NASS appreciates your
thorough and thoughtful report and takes your review and recommendations seriously. We are
committed to implementing each of the recommendations and to the continuous improvement of
our systems and procedures. Our responses identify these commitments and highlight actions we
have already taken that were not mentioned in the report.

As background, in 2011 NASS originally asked the Agriculture Security Operations Center
(ASOC) and the Office of the Chief Information Officer to conduct an audit of the Lockup press
room following incidents during which news stories were inadvertently released out of Lockup
before NASS released the official data. NASS sought to identify vulnerabilities and ways to
improve its Lockup security systems and processes.

Following the ASOC review in 2011, NASS addressed recommendations in the report including:
     Installing new redundant switches in the press room to control network connectivity;
     Segregating the press room communication equipment into two cabinets – one containing
       government equipment and the other containing news agency equipment;
     Adding cameras outside of all Lockup doors (they are monitored by the USDA command
       center); and
     Installing lockers outside of Lockup to hold personal items prohibited in Lockup.

The Office of the Inspector General (OIG) conducted a subsequent audit of the broader Lockup
process during 2013. This report documents the OIG’s audit findings. NASS implemented many
of the recommendations found in this report during the audit period and since its completion.
While the OIG report does mention some actions NASS has already taken, we have completed
actions on many more recommendations that are not documented in the report. During the exit
conference, the auditors agreed noting that they could not include actions that they did not
observe during their visits or that occurred between their last visit and the report preparation.

The OIG’s recommendations to improve Lockup procedures and the security of the press room
fall into three primary categories: Lockup Management, Lockup Security, and IT Security.
NASS is responding with actions it has taken in each of these areas.
        Room 5041A-South Building · 1400 Independence Avenue, SW · Washington, D.C. 20250-2001
                       (202) 720-2707 · (202) 720-9013 FAX · www.nass.usda.gov

                             USDA is an equal opportunity provider and employer.
Gil H. Harden
Assistant Inspector General for Audit




LOCKUP MANAGEMENT – Recommendations 1-5

The initial recommendations in this section are the foundation of OIG’s final recommendations
to assure long-term review and improvement of NASS Lockup management. NASS is
establishing an oversight group responsible for ongoing review of Lockup security procedures
and practices, including establishing a more comprehensive set of standard operating procedures
(SOPs) and consistently using plans of actions and milestones (POA&Ms). Each October, an
annual report will be provided to an external evaluator. Until the oversight group is established,
personnel in charge of Lockup elements have established standard operating procedures and have
taken actions to implement recommendations in their areas of responsibility.

In the area of Lockup management the report mentions IT vulnerabilities. NASS took immediate
and significant actions regarding the finding of 4,800 network vulnerabilities. In our first action,
about 3,900 vulnerabilities were either resolved or added to a POA&M. We have implemented a
stricter vulnerability mitigation process to avoid future vulnerabilities. This will be reviewed by
both internal and external review groups.

After the early release that occurred in 2011, NASS has taken multiple steps to prevent both
early release and report release delays. NASS is actively monitoring results and will incorporate
continual analysis and assessment as part of the internal review process. This will include
revising our agreement with the National Information Technology Center (NITC) to include
specific responsibilities and minimum performance standards.

Our responses to the five recommendations relating to NASS Lock-up management are:

1. NASS will establish a group responsible for developing, implementing, conducting and
documenting internal reviews of the entire Lockup process annually by October 1 of each year.
The results of this review will be shared with an independent evaluator and integrated with other
evaluations.

2. NASS will employ an independent evaluator as recommended to monitor, track and report
results of corrective actions of the entire Lockup process. Results of this independent evaluation
will be shared with the REE Undersecretary bi-annually by October 1 of odd numbered years.

3. NASS is currently conducting POA&Ms as part of its corrective action plan and has
incorporated these into the USDA Cyber Security Assessment and Management (CSAM)
System.

4. NASS is and has taken several actions to minimize report release delays. NASS will have a
plan in place by March 15, 2014, and will incorporate continual analysis and assessment as part
of the internal review process.

5. NASS will update its service level agreement with NITC to include specific responsibilities
and minimum performance standards by October 1, 2014.


                                             Page 2 of 5
Gil H. Harden
Assistant Inspector General for Audit




LOCKUP SECURITY – Recommendations 6-12

In the past two years, NASS has focused on multiple efforts to prevent wireless and cellular
devices within Lockup. We have sought a permanent solution to actively prevent cellular activity
within Lockup. In September 2013, we submitted a waiver request to the National
Telecommunications & Information Administration (NTIA) to allow cellular blocking within the
Lockup area. The NTIA denied this request. NASS will continue to investigate mitigation
strategies for limiting cellular access. This will be incorporated into the annual review process.

We installed lockers to hold personal items that are prohibited in Lockup. We recently revised
security procedures to enter Lockup. We have installed and are using electronic security
detectors through which everyone entering Lockup must pass as one line of defense against
electronic devices such as mobile phones. Federal Protective Service (FPS) guards have a revised
protocol to check bags and identity. NASS has taken action to ensure that FPS guards have and
follow updated and clear security procedures in regards to identity checks and documentation.

NASS is conducting monthly audits and developing procedures to remove terminated or retired
employees from the key card access database and to maintain accurate documentation of
separation checklists. NASS has reviewed records to ensure that all current employees and
contractors have current confidentiality forms on file, and we will continue a periodic review.
We are documenting a process to ensure employees sign confidentiality forms upon hiring and at
their annual performance reviews.

We are also actively observing the security processes at the Lockup entrance and monitoring the
activities of reporters in the Lockup press room. Reporters have been instructed again on
procedures allowed in the room and penalties of prohibited actions.

Our responses to the seven recommendations relating to NASS Lockup security are:

6. NASS has purchased, and with each Lockup is now using, an electronic screening device that
all Lockup entrants must pass through to prevent wireless and cellular devices within Lockup.
This device will screen for cellular and wireless devices. NASS submitted a waiver request to the
National Telecommunications & Information Administration in September 2013 to allow cellular
blocking within the Lockup area. This request was denied. NASS will continue to investigate
mitigation strategies for limiting cellular access. This review will be incorporated into the
annual review process.

7. By June 1, 2014, we will revise the current FPS contract, to include detailed guard
responsibilities, in accordance with NASS procedures, as well as recourse if performance is not
adequate.

8. NASS has already instituted a procedure to co-locate a NASS employee with FPS personnel
to ensure duties are carried out in accordance with contractual agreements. NASS will continue
to enhance these procedures and monitor FPS personnel when a new contract is signed.


                                            Page 3 of 5
Gil H. Harden
Assistant Inspector General for Audit



9. NASS will implement a process to ensure NASS employees and contractors update and sign
confidentiality forms. This process will coincide with the annual performance review process.

10. NASS has developed procedures and will continue to conduct monthly audits to assure that
terminated or retired employees are removed from the key card access database and that we
maintain accurate documentation of separation checklists.

11. By October 1, 2014, NASS will revise Lockup procedures to include more specific guidance
on the steps to take in the event of a disaster during Lockup, and the locations to which staff,
press, and visitors will be moved. NASS will train its own staff and media representatives on
disaster recovery procedures.

12. By June 1, 2014, NASS will update the statement of work for the FPS guards to increase the
level of Lockup security, in line with the recommendations.

IT SECURITY- Recommendations 13-17

In the past two years, NASS has implemented many improvements to the server room security,
access, inventory and pre-Lockup checklist. Clocks were installed in the server room in 2013 to
assist with timely report dissemination. Our practices will be included in a checklist for the
internal reviewers to examine how NASS complies with the physical and environmental controls
in the National Institute of Standards and Technology (NIST) Special Publication 800-53.

NASS has developed and is using pre-Lockup checklist procedures to verify that electrical
equipment and server rooms are locked at all times. We are also conducting and maintaining a
comprehensive inventory of all equipment in the Lockup server room. This inventory list is
checked against equipment in the room as part of the pre-Lockup checklist.

Since the OIG identified that NASS was using pre-release data to test its Estimation and
Publication systems, NASS has successfully completed re-accreditation of the NASS Estimation
and Publication Major Application. It achieved authority to operate (ATO) on September 6,
2013.

Our responses to the five recommendations relating to IT security are:

13. As part of the internal review process in Recommendation 2, NASS will by October 1, 2014,
include a checklist for reviewers to examine how NASS complies with the physical and
environmental controls in the National Institute of Standards and Technology (NIST) Special
Publication 800-53.

14. NASS has developed, is executing, and will continue to execute a pre-Lockup checklist to
include verifying that electrical equipment and server rooms are locked at all times.




                                           Page 4 of 5
Gil H. Harden
Assistant Inspector General for Audit

15. NASS now maintains a comprehensive inventory of all equipment in the Lockup server
room. This inventory list will be checked against equipment in the room as part of the pre-
Lockup checklist.

16. NASS only uses test data or data that have already been released when testing a system.

17. By October 1, 2014, and in cooperation with the Department, NASS will review the IT
systems boundaries and make adjustments where necessary as part of the assessment and
accreditation process.

Thank you once again for the opportunity to provide these comments.




                                           Page 5 of 5
To learn more about OIG, visit our website at
www.usda.gov/oig/index.htm
How To Report Suspected Wrongdoing in USDA Programs

Fraud, Waste and Abuse
e-mail: USDA.HOTLINE@oig.usda.gov
phone: 800-424-9121
fax: 202-690-2474

Bribes or Gratuities
202-720-7257 (24 hours a day)




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on
the basis of race, color, national origin, age, disability, and where applicable, sex (including gender identity
and expression), marital status, familial status, parental status, religion, sexual orientation, political beliefs,
genetic information, reprisal, or because all or part of an individual’s income is derived from any public
assistance program. (Not all prohibited bases apply to all programs.) Persons with disabilities who require
alternative means for communication of program information (Braille, large print, audiotape, etc.) should
contact USDA’s TARGET Center at (202) 720-2600 (voice and TDD).

To file a complaint of discrimination, write to USDA, Assistant Secretary for Civil Rights, Office of the
Assistant Secretary for Civil Rights, 1400 Independence Avenue, S.W., Stop 9410, Washington, DC 20250­
9410, or call toll-free at (866) 632-9992 (English) or (800) 877-8339 (TDD) or (866) 377-8642 (English
Federal-relay) or (800) 845-6136 (Spanish Federal relay).USDA is an equal opportunity provider and employer.
